CAPITAL CASE
DOCKET NO. 20-5492
IN THE SUPREME COURT OF THE UNITED STATES

RAY LAMAR JOHNSTON,
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE FLORIDA SUPREME COURT

PROOF OF SERVICE

David D. Hendry
Florida Bar Number 0160016
Law Office of the Capital Collateral Regional
Counsel – Middle Region
12973 N. Telecom Parkway
Temple Terrace, Florida 33637
Phone No. (813) 558-1600 ext. 624
Fax No.
(813) 558-1601
hendry@ccmr.state.fl.us
Attorney of Record for Petitioner

PROOF OF SERVICE
I, David D. Hendry, do swear or declare that on this date, October 8, 2020, as required
by Supreme Court Rule 29 I have served the enclosed REPLY BRIEF FOR
PETITIONER on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by overnight delivery via UPS.
The names and addresses of those served are as follows:
Carolyn Snurkowski
Associate Deputy Attorney General
Florida Bar No. 158541
Office of the Attorney General
Capital Litigation
PL-01, The Capitol
Tallahassee, FL 32399
(850) 414-3300
carolyn.snurkowski@myfloridalegal.com

Timothy Freeland
Senior Assistant Attorney General
Florida Bar. No. 539181
Office of the Attorney General
3507 East Frontage Road, Suite 200
Tampa, FL 33607
(813) 287-7910
timothy.freeland@myfloridalegal.com
capapp@myfloridalegal.com

I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 8, 2020.

/s/ David D. Hendry
David D. Hendry
Assistant CCRC-M
Florida Bar No. 0160016
Capital Collateral Regional Counsel – Middle Region
12973 N. Telecom Parkway
Temple Terrace, Florida 33637
(813) 558-1600
hendry@ccmr.state.fl.us
support@ccmr.state.fl.us

1

